<html>
<title> - [H.A.S.C. No. 115-66]READYING THE U.S. MILITARY FOR FUTURE WARFARE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-66]
 _____________________________________________________________________                        

             READYING THE U.S. MILITARY FOR FUTURE WARFARE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 30, 2018


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-969                 WASHINGTON : 2018      



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             JIMMY PANETTA, California
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                      Jen Stewart, Staff Director
                         Tim Morrison, Counsel
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan, a Representative from California, Committee on 
  Armed Services.................................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Mahnken, Dr. Thomas G., President and Chief Executive Officer, 
  Center for Strategic and Budgetary Assessments.................     2
Scharre, Paul, Senior Fellow and Director, Technology and 
  National Security Program, Center for a New American Security..     6
Thomas, Jim, Principal and Co-Founder, Telemus Group.............     5

                                APPENDIX

Prepared Statements:

    Mahnken, Dr. Thomas G........................................    44
    Scharre, Paul................................................    57
    Smith, Hon Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    42
    Thomas, Jim..................................................    48
    Thornberry, Hon. William M. ``Mac''..........................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
             READYING THE U.S. MILITARY FOR FUTURE WARFARE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 30, 2018.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. The 
committee meets today to hear perspectives on the future nature 
of warfare. No one can predict the future with certainty. We 
will inevitably face surprises, but we have to try to peer into 
the fog looking for trends that point us towards where warfare 
is headed. History tells that even great powers can be 
overwhelmed by change that they do not recognize or to which 
they do not adapt. Neither our adversaries nor relentless 
change will wait for us to catch up.
    Responding to these future indicators does not mean that we 
can necessarily walk away from more traditional capabilities. 
The challenge of our times and the challenge of our budgets is 
that we must be prepared for the full range of threats from 
having a strong credible nuclear deterrent to nonkinetic 
political influence operations and everything in between. 
Despite the controversy, there is a lot of truth in former 
Secretary of Defense Rumsfeld's comment that ``you go to war 
with the Army you have, not the Army you want or wish to have 
at a later time.'' The military that the United States has 
depends on the decisions made by Congress as part of our 
constitutional responsibilities to raise and support, provide 
and maintain our military forces. Secretary Mattis has 
testified that the American advantage in every domain of 
warfare is eroding. That is the reality with which we must 
prepare for whatever the future brings.
    We welcome three well-qualified witnesses to help us peer 
into the future today so that we can better meet our duties 
under the Constitution to our troops and to our Nation. But 
before turning to them, I would yield to the distinguish acting 
ranking member, Mrs. Davis, for any comments she would like to 
make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 41.]

     STATEMENT OF HON. SUSAN DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you, Mr. Chairman. And I also welcome our 
witnesses today. Thank you very much for sharing your views 
with us.
    On behalf of the chairman, I want to ask unanimous consent 
to submit his statement for the record. And if I could just 
highlight a few things that I know the chairman shares as well 
and the ranking chair, particularly highlighting the importance 
of a whole-of-government approach. And we know how really 
important that is in successfully implementing the National 
Defense Strategy. So I just support to expand our partnerships 
and strengthen our alliances.
    Of course, fiscal certainty is also critically important, 
and we are all well aware of the challenges in that regard. And 
wanting to also speak again, we have to eliminate sequestration 
and lift the BCA [Budget Control Act] caps. That is going to be 
important to future efforts of the Defense Department and 
certainly in defense and in protection of our troops.
    I hope that we can look at all of our investments and take 
actions that would yield savings or raise revenues. We 
certainly have a duty to manage our resources, and we 
appreciate your insights today.
    Thank you very much.
    The Chairman. Without objection, the full statement of the 
ranking member will be made part of the record.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 42.]
    The Chairman. We are pleased to welcome today Dr. Tom 
Mahnken, president and chief executive officer of the Center 
for Strategic and Budgetary Assessments; Jim Thomas, principal 
and co-founder of the Telemus Group; and Paul Scharre, senior 
fellow and director, Technology and National Security Program 
at the Center for a New American Security. Thank you all for 
being with us.
    Without objection, your full written statements will also 
be made part of the record. But I would yield to you at this 
point for any oral comments you would like to make.
    Dr. Mahnken.

    STATEMENT OF DR. THOMAS G. MAHNKEN, PRESIDENT AND CHIEF 
     EXECUTIVE OFFICER, CENTER FOR STRATEGIC AND BUDGETARY 
                          ASSESSMENTS

    Dr. Mahnken. Thank you, Chairman Thornberry, Acting Ranking 
Member Davis, distinguished members of the committee. Thank you 
for the invitation to appear before you today.
    This really is a vitally important topic. In recent years, 
it has become apparent that we are living in a world 
characterized by peacetime competition between the United 
States, China, and Russia. And both the National Security 
Strategy and the National Defense Strategy have rightfully 
emphasized this. Of course, competition isn't the same thing as 
conflict nor does competition necessarily lead to conflict. But 
it must be admitted that the chances of great power conflict 
are increasing, maybe remote, but not inconceivable and 
growing. What was once a hypothetical future contingency is now 
a real and present danger.
    And in my prepared statement, which has been entered into 
the record, I--you know, I talk about a number of the 
challenges. But rather than reading from it, I would like you 
to join me in a thought experiment, a thought exercise 
exploring how a future war could unfold. And it touches on the 
themes that I lay out in my prepared statement.
    So let's imagine a war between the United States and China 
over Taiwan. For our purposes today, it is unimportant to 
describe how the war would break out, merely to believe that 
such a war is possible, however unlikely.
    Such a war could very well begin with massive attacks by 
precision-guided missiles not only against military facilities 
in Taiwan but also against U.S. bases in the region, 
potentially including those in Japan and on U.S. territory on 
Guam. How well prepared are the United States and its allies to 
meet such attacks?
    This campaign, this massive conventional precision missile 
campaign, could inflict considerable damage on U.S. forces in 
the Pacific, including U.S. air and naval forces. Where would 
the United States find replacements for these lost forces?
    Imagine further that Chinese submarines armed with land-
attack cruise missiles are presumed, suspected, to be lurking 
in international waters off of American ports, American naval 
bases such as Norfolk and San Diego. How would the United 
States balance the need to act in the Western Pacific with the 
need to defend the U.S. homeland?
    Now imagine also that China's mobile nuclear land-based 
ballistic missiles leave their garrisons and are largely 
unlocated and that China's nuclear ballistic missile submarines 
put to sea. How would the possibility, the threat, of Chinese 
nuclear coercion and retaliation, however explicit or implicit, 
affect our ability to act in the Western Pacific.
    Accompanying this massive missile barrage that I described 
earlier would likely be attacks, perhaps overt, perhaps covert, 
on networks that support U.S. military operations to include 
logistics networks as well as on U.S. communication and imagery 
satellites. Again, as I say, some of that might be overt and 
apparent, some of it might be quite murky, difficult to 
attribute. Precision navigation and timing networks, such as 
the Global Positioning System [GPS], that support the military 
and a lot more might be disrupted. How prepared is the United 
States for a conflict in space and cyberspace?
    Also accompanying this would likely be a Chinese political 
warfare campaign aimed at blaming the war on the Taiwanese 
Government, perhaps, and perhaps combined with messaging 
targeted on members of the U.S. business community with large 
investments in China warning of the dire consequences that they 
would face should the United States intervene in the conflict.
    Imagine tailored messaging to U.S. allies and friends in 
the region viewing the United States or portraying the United 
States as the interloper, as the outsider. Imagine other 
messages warning that the Chinese Government could not 
guarantee the safety of the thousands and thousands of 
Americans in China should the United States act. How prepared 
is the United States to defend against and respond to such 
political warfare campaigns?
    Now let's imagine what many of us would see as a positive 
outcome, a happy outcome, a battlefield victory. Let's imagine 
that Taiwan, backed by the United States and perhaps others, is 
able to resist Chinese aggression, that this missile campaign, 
these other things, don't cause the Taiwanese Government to 
fold, they just steel Taiwan's will. But the result, of course, 
is not peace, but a protracted conflict with China gearing up 
for a long war. How prepared is the United States, and how 
prepared are we and our allies, for such a situation?
    Mr. Chairman, as you noted in your introductory comments, 
military planners have to place bets against an uncertain 
future. And it is only when war comes, and, of course, we hope 
that war doesn't come, but it is only when war comes that we 
can figure out whether those bets have been good ones or not. 
This scenario and my written testimony point to some current 
shortfalls as well as the way forward to address them so that 
we can strengthen deterrence.
    First we need to field Armed Forces that possess depth and 
resilience to be able to fight, accept damage, and recover. 
Today our forces lack readiness and are in dire need of 
modernization. Moreover, from the bottom to the top, our 
soldiers, sailors, airmen, and Marines have grown used to 
fighting terrorists and insurgents and are unfamiliar with the 
challenges of great power war.
    Second, we need a defense industrial base and a national 
security innovation base more broadly that is capable of 
supporting protracted operations. For two decades, the 
watchword has been efficiency rather than effectiveness. 
Moreover, in a globalized interdependent world, we need to 
think carefully about foreign investment in strategic 
industries that bear on defense.
    Third, we need a logistical system capable of operating in 
contested environments. Getting needed men and material from 
the United States to forward bases and staging areas to the 
battlefield will be an increasing challenge.
    Fourth, we face a growing need to defend the United States, 
to include our networks and military bases as well as our space 
assets.
    Fifth, we will need to develop ways to identify and counter 
foreign efforts to influence our society and those of our 
allies. Russia and China have been practicing political warfare 
on us for some time, and the magnitude of those efforts is only 
now becoming apparent. We need to develop countermeasures and 
responses to those efforts.
    Here, as in other areas, past experience can certainly 
inform us. And as a historian, I believe in the power of 
history and its importance. But the past can also mislead us. 
There are clearly areas where we need to relearn lost skills, 
skills that we possessed during the Cold War, to include 
logistics and mobilization. But we shouldn't mindlessly ape 
past behavior. Great power competition in the 21st century will 
not be a replay of the Cold War. In the future, great power 
war, should one occur, will not be a rerun of World War II or 
the never-fought World War III between the United States and 
the Soviet Union.
    Instead, we need to assess thoughtfully the similarities 
and the differences with the past and rebuild, and in some 
cases just build, intellectual capital and acquire the 
capabilities we need to deal with the era that we are in and 
likely to be in for the foreseeable future.
    Thank you very much.
    [The prepared statement of Dr. Mahnken can be found in the 
Appendix on page 44.]
    The Chairman. Thank you.
    Mr. Thomas.

  STATEMENT OF JIM THOMAS, PRINCIPAL AND CO-FOUNDER, TELEMUS 
                             GROUP

    Mr. Thomas. Thank you, Chairman Thornberry and Ranking 
Member Davis and members of the committee, for inviting me to 
testify today.
    I would like to focus my remarks on America's ongoing 
strategic reorientation towards great power competitions and 
highlight the significant implications this reorientation will 
entail. Only a few years ago, senior defense leaders believed 
it was inconceivable that the United States would ever fight 
Russia or China. And while war with great powers is not 
inevitable and can certainly be prevented, it is no longer 
inconceivable.
    The new defense strategy has called for treating 
competitions with China and Russia as the Department's top 
priorities for planning. This represents a potential sea change 
for readying the U.S. military for future war. To understand 
why such rebalancing will be necessary requires understanding 
the profound ramifications of this modern, multisided, great 
power competition and its impacts on U.S. defense planning.
    First and foremost, a renewed emphasis on great power 
competition with Russia and China should lead to a 
comprehensive reevaluation of the U.S. military's joint 
expeditionary warfare approach. Both the Russian and Chinese 
militaries are capable of achieving limited local military and 
paramilitary objectives before the bulk of U.S. forces could 
arrive in proximate theaters. And both have built up formidable 
A2/AD [anti-access/area denial] complexes that would hinder the 
U.S. military from gaining footholds nearby or operating with 
impunity.
    To be clear, the erosion of the U.S. military's positions 
in Europe and the Far East is less a consequence of being 
outmanned than of being increasingly outgunned, outsticked, 
outpostured in tough away games. The fact that expeditionary 
warfare lacks the potency and credibility it once had requires 
the United States to identify and adopt new approaches to 
projecting power. The prioritization of great power competition 
in U.S. strategy also means that nuclear forces are once again 
coming to the forefront of planning efforts.
    War games and other planning exercises must consider 
scenarios involving their use, in an effort to understand 
potential escalatory dynamics. The United States must also 
shore up its theater nuclear warfare capabilities by fielding 
theater-range, difficult-to-intercept nuclear cruise missiles. 
Such missiles could be air or submarine launched and should 
have a high probability of arrival at a target despite the 
presence of precision air defenses.
    Beyond the nuclear dimension, great power competition will 
also require rebalancing U.S. conventional forces. In 
particular, it will place a premium on low signature forces 
with light logistics footprints capable of operating 
independently far forward in denied areas. Such forces include 
submarines and unmanned underwater vehicles, long-range 
penetrating surveillance and strike aircraft, special 
operations forces, ground-based missile forces, cyber and 
electronic attack capabilities, and space-based persistent 
surveillance systems.
    All of this coupled with vastly greater quantities of 
precision standoff and direct attack munitions. These forces 
represent only a fraction of the current U.S. military but are 
likely to constitute the core element of a joint vanguard force 
in any future great power contingency.
    Rebalancing our forces should be informed by the fact that 
war with Russia and/or China would involve target sets that are 
potentially vastly greater and more geographically distributed 
than those of regional opponents like North Korea. The United 
States may have to increase its stocks of preferred precision-
guided munitions and delivery systems by more than an order of 
magnitude to ensure its conventional deterrent is credible.
    Whatever dangers of collusion and opportunistic aggression 
there were with respect to region rogue states, they pale in 
comparison with the risks associated with Russia and China. 
Indeed, should war break out between the United States and one 
of these powers, it is difficult to imagine that one party 
would not coordinate its warfighting efforts with the other.
    A strategy that emphasizes great power competition should 
take account of the likelihood that the other great powers will 
collude in opposing the United States both during peacetime 
competitions as well as in a state of armed conflict. This 
places a premium on globally fungible forces and capabilities 
that could be used to inflict unacceptable levels of punishment 
on multiple adversaries simultaneously.
    In conclusion, Mr. Chairman, the competitions the United 
States faces with Russia and China are likely to last for 
decades. Winning will likely come from our staying power rather 
than victory in any decisive battle of annihilation. Thus it 
will be critical to maintain national solvency over time and to 
judiciously apply scarce resources--fiscal, human, natural, 
allied, and technological--in order to fulfill our duty to 
provide for the common defense not only for ourselves but for 
our posterity.
    Thank you
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 48.]
    The Chairman. Mr. Scharre.

    STATEMENT OF PAUL SCHARRE, SENIOR FELLOW AND DIRECTOR, 
  TECHNOLOGY AND NATIONAL SECURITY PROGRAM, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Mr. Scharre. Chairman Thornberry, Ranking Member Davis, and 
distinguished members, thank you for inviting me to testify 
today.
    The title of today's hearing is ``Readying the U.S. 
Military for Future War.'' I regret to say that the U.S. 
military is not ready for the threats we face today.
    In a recent simulation of a war in the Western Pacific, 
colleagues of mine at the Center for a New American Security 
showed that a Chinese missile strike on U.S. bases in the 
region could destroy more than 200 aircraft on the ground, 
crater every runway at U.S. air bases in Japan, hit almost 
every major headquarters within minutes of a conflict 
beginning, destroy key logistical facilities, and hit almost 
every U.S. ship in port in Japan.
    Similar analysis done by other defense experts have 
consistently shown that the United States ability to project 
power abroad has been steadily declining. China's arsenal of 
hundreds of cruise missiles and over 1,000 ballistic missiles 
poses a significant threat to U.S. bases in the region and 
aircraft carriers. The U.S. military faces similar problems in 
Europe where the United States has fallen behind Russian 
investments in long-range precision strike, integrated air 
defenses, and electronic warfare.
    These problems did not spring up overnight. Broadly 
categorized under the label of anti-access capabilities, these 
threats to U.S. power projection are well understood. Defense 
analysts have been warning about the U.S. military's 
diminishing ability to project power into contested regions for 
the past two decades. And these threats have been recognized in 
every official DOD [Department of Defense] strategy document 
since the 2001 Quadrennial Defense Review.
    Moreover, the steps necessary to counter these threats are 
clear. Increased investment in long-range strike, stealthy 
uninhabited aircraft to hunt mobile targets, advanced 
munitions, electronic warfare, and undersea strike. Yet the 
military has made only halting steps towards these investments. 
The Air Force is still heavily weighted towards short-range 
tactical fighter aircraft, and under current plans, will remain 
so for decades to come. The Navy's aircraft carriers similarly 
only carry short-range fighters limiting the carrier's 
usefulness in the early stages of a major conflict.
    Despite strong pressure from Congress, the Navy has no 
plans to invest in a long-range strike aircraft to extend the 
carrier's reach. The Army has even more acute problems in power 
projection due to reduction in Army brigades forward based in 
Europe and the complete lack of any effective Army 
modernization for the past 15 years.
    Why are we here? We spend more money than our adversaries. 
The United States is a global technology leader, and our 
warfighters are better educated, trained, and motivated than 
our adversaries. We have seen this problem coming for two 
decades yet we have failed to adequately respond. It is not for 
lack of money. With sufficient reforms, there is ample money 
within a $600 billion defense budget.
    Budgetary stability is needed. The current budgetary 
instability inflicted on the military due to a failure of the 
Nation's political leaders to reach a bipartisan deal on taxes 
and entitlements has severely hampered readiness and 
modernization.
    We cannot fuel the first-class military through government 
shutdowns, continuing resolutions, and constant uncertainty 
about long-term spending. But these problems predate the 
current budgetary crises.
    Money alone will not cure what ails the Pentagon. Nor is it 
because DOD has been fixated on wars in the Middle East. A lot 
of taxpayer money went towards military modernization for 
future threats even while troops were fighting in Iraq and 
Afghanistan.
    The reason we have failed to adapt is because our system 
lacks sufficient strategic agility. We have a ponderous and 
risk-averse acquisition system that develops weapons on 
decades-long time horizons. This is too slow to keep pace with 
the rapidly changing world.
    This problem is compounded by political pressures in the 
Pentagon, industry, and Congress that make it exceedingly 
difficult to cancel legacy programs that are less useful for 
future wars. If our military is to adapt to these threats, 
Congress must be a willing partner in terminating programs that 
are no longer needed.
    And finally, cultural resistance within elements of the 
military to new paradigms for warfighting, particularly when it 
comes to using uninhabited and robotic systems. Congressional 
leadership is needed to help prod the military services towards 
new ways of fighting that may be uncomfortable but are 
necessary if the United States is to remain a global military 
power.
    Thank you for the opportunity to testify here today, and I 
look forward to your questions.
    [The prepared statement of Mr. Scharre can be found in the 
Appendix on page 57.]
    The Chairman. Thank you. Thank you all.
    Okay. We asked all three of you-all to help us peer into 
the future about the nature of warfare. And all three of you-
all come back and say what we have to prepare for is peer 
competitors, Russia, China. Now, is that because the new 
defense strategy says that, or do you-all really believe that 
is the direction things are headed and that is the threat for 
which we have to be prepared?
    Just run down the line right quick.
    Dr. Mahnken. Sure. Well, I am on record, over the course of 
years, I hate to say it maybe more than a decade at this point, 
saying that great power competition, the prospective of great 
power war, is the most consequential threat that we will face 
and, therefore, it really should be the centerpiece of our 
planning. Not to say that there aren't other contingencies, but 
the most consequential, the most important contingency we face 
out there is the prospect of a great power war.
    Mr. Thomas. I think that is--Tom put it just right, which 
is it is the most consequential, even if perhaps it is not 
always going to be the most likely or the most frequent. And if 
we prepare adequately for conflict and competitions with great 
powers, that is our best chance at avoiding that very outcome.
    Mr. Scharre. So, Chairman, the new NDS [National Defense 
Strategy] says that inter-state strategic competition, not 
terrorism, is the primary concern in U.S. national security. I 
don't agree with that assessment. Terrorists killed 3,000 
people on 9/11, and terrorists remain a direct threat to the 
safety and security of American citizens. I think it is 
important to distinguish between threats to U.S. citizens and 
their lives and American interests abroad.
    A lot of other places, Taiwan, the Spratly Islands, 
Ukraine, those are not U.S. territories. They matter to U.S. 
interests, right. And I think we do need to prepare for both. I 
don't agree with the ranking ordering of them.
    From a financial standpoint, the challenge is that it costs 
a lot more to compete against countries like Russia or China or 
to defend against ballistic missile threats from North Korea 
than to fight terrorists.
    So there are investments we need to make to do things to 
prepare for terrorism, things like a new OA-X airplane for the 
Air Force, sustaining, for example, the MQ-9 fleet. But they 
are not as costly as the things you need to do to prepare for 
inter-state strategic competition.
    The Chairman. Okay. You just confused me. So you are saying 
that because we can do some things cheaper, we ought to do 
those and ignore other things----
    Mr. Scharre. No.
    The Chairman [continuing]. Because they are more expensive?
    Mr. Scharre. We have to do all of them. We have to be able 
to do all of them.
    I don't agree with the rank ordering that demotes terrorism 
as though that is not a concern. We have to be able to do all 
of those things.
    The Chairman. Okay. Yeah. All right. That, I agree with.
    But then Mr. Scharre was very explicit saying we are not 
ready for great power competition. Do you-all agree with that?
    Dr. Mahnken. I do. We have taken essentially a quarter 
century hiatus from thinking about and preparing for these 
types of contingencies.
    Mr. Thomas. I would just add to that in agreement that we 
have honed our warfighting enterprise around fighting smaller 
regional contingencies. Our expeditionary warfare approach is 
tailor-made for going up against Saddam Hussein's Iraq. But it 
would require a tremendous amount of adaptation to face Russia 
or China.
    The Chairman. Well, and I guess that is the last question I 
want to ask for now.
    So on 9/11, we were woefully unprepared for the kind of 
conflict we were going to engage in for the next 17 years so 
far. How big a deal is this cultural mindset to shift from 
terrorism and regional sorts of situations that you describe, 
Mr. Thomas, to this return or emergence of multiple great power 
competitions?
    I will start with you, Mr. Thomas, and then I will get 
everybody.
    Mr. Thomas. I think it is challenging but in a variable way 
across the force. And really what you are talking about, and I 
think Paul was getting to this, is it is really about 
rebalancing inside of each one of our services. In the Air 
Force between short range and long range. In the Navy between 
surface and subsurface. In the Army between maneuver force and 
fires. Within special operations between direct action and 
unconventional warfare.
    So we have big changes to make across all of our services 
as we adapt. And it is not a question of jettisoning global 
counterterrorism operations, but it is a question of, 
essentially, adjusting the rheostat for the joint force.
    The Chairman. Mr. Scharre, do you have any comments on 
that?
    Mr. Scharre. Yes, sir. We do need to rebalance our forces, 
but it is not actually from terrorism to great power conflict. 
It is really this middle kind of space that Mr. Thomas 
described as expeditionary warfare that the military has been 
focused on. It hasn't really been terrorism. It has been 
basically refighting the Iraq war.
    So if we need to go overseas and fight a smaller middle 
power where we could have ready access to a nearby land base, 
or we can bring our aircraft carriers up close, we are well 
positioned to do that. If we had to fight from a distance, what 
we don't have access as a great power, we don't have an ability 
to do that.
    The Chairman. Okay. Dr. Mahnken.
    Dr. Mahnken. I guess I see the cultural challenges as a 
significant one. You know, we spent the first decade after the 
end of the Cold War in a period of sort of unchallenged 
dominance. And then as you point out, since then we have really 
been focused on terrorism and counterinsurgency.
    We have a whole generation, so 25 years, a professional 
lifetime in the military, professional lifetime functionally in 
the civil service, we have a whole group that really knows 
nothing other than that. And I will count myself as part of 
that, as an Iraq war veteran. We have people who have had very, 
very difficult, very personal experiences in a particular type 
of war that may provide experience, but also may mislead.
    And it is often said, you know, with respect to, say, 
China, Well, China hasn't fought a war since, well depending on 
how you count it, 1953 against us in Korea, in 1979 against 
Vietnam. I always ask the U.S. armed services, when was the 
last time that we fought a peer adversary. For the U.S. Navy, I 
think that was 1944. I wouldn't even give credit for 1945, the 
last year of World War II. And so we need to re-acculturate to 
a very different type of situation than we faced in the last 
about 17 years.
    The Chairman. Okay. Thank you all.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I wonder if you could talk about the role--more of the 
roles and--of alliances and partnerships in future wars. I 
think we would probably all agree that there is certainly an 
importance to that, and a defense strategy speaks to it. But 
being more nuanced about that, more detailed, what is it that--
how would we want to encourage them in certain areas? And what 
are we expecting of them?
    And then, finally, if we don't have that as a priority from 
the highest levels of government, how do we--how do we function 
with that?
    Mr. Thomas. You know, for most of the last 25 years, we 
spent a lot of time encouraging our allies to go out of area 
with us, to go to the Middle East to provide tanker refueling 
in the Indian Ocean and doing other things such as that. What 
we really need right now are allies on the front lines in 
Europe and in East Asia who are really focused on their own--on 
defense of their own sovereignty, of their sovereign air space, 
their land borders, and their maritime approaches to a far 
greater extent.
    And so this is really--I think this is really hard for the 
United States because in the past we have asked our allies to 
be little mini-me's; we wanted them to be a smaller version of 
the U.S. military.
    What we are talking about now, I think, is radical 
differentiation where, in fact, we want our allies to look some 
ways a lot more like our adversaries. We want our allies to 
have their own anti-access and area denial capabilities so that 
they can fend off the power projection gambits of potential 
aggressors.
    We also want them to provide some sanctuary for us so that 
we can either forward station forces in peacetime as part of a 
deterrent or, to a more limited extent, flow forces in to 
reinforce them in a crisis or conflict.
    Dr. Mahnken. Yeah, if I could build off that.
    So first I would say, you know, our alliances, our allies, 
really are a comparative advantage, and they offer the United 
States a lot of--a lot of benefits. But to agree with what Jim 
just said, I mean, I think we need to have, both here at home 
and also with our close allies, a very frank conversation about 
what sovereign capability we and our allies need to possess and 
what areas we can truly rely on each other for.
    So as one example, we have a lot of information-sharing 
agreements with our close allies. We rely, on a day-to-day 
basis, on information not just produced here but produced 
there. We rely on that. I think that is a good basis. Are there 
other areas where we can do that? And to the extent that we can 
develop truly shared capabilities, it means that we--that they 
may not have to reproduce everything that we have, and we may 
not have to reproduce everything that they have.
    I think the time is right because of the threat 
environment, because of the fiscal situation, for that type of 
frank discussion between ourselves and our allies.
    Mrs. Davis. Mr. Scharre.
    Mr. Scharre. Yeah. So I certainly would agree that our 
alliances are an asymmetric advantage. And we want to make sure 
that we take care of them and have them ready to use.
    One of the challenges I think is that we have been viewing 
often alliances in this role of adding sort of political top 
cover when we go overseas and do--we add more people on, build 
a coalition of the willing. That is important, that is very 
valuable.
    For many of these future conflicts against, say, a Russia 
or China, we actually would be looking for allies particularly 
for basing and access. Our ability to get into the region. And 
so not just sort of having more flags around the team but that 
they really would be vital members for us to be able to go in 
and operate.
    Mrs. Davis. Is there more than a role only for the military 
in this as well? How would you characterize that? Because we 
know that in many cases our ambassadors, our State Department 
help negotiate some of those basing agreements. So how 
critical--are we actually even looking at that as a priority in 
that particular need?
    Mr. Scharre. Absolutely it is critical. We certainly--
diplomacy is the method by which you build those alliances and 
sustain them.
    Mrs. Davis. All right.
    Dr. Mahnken. Here I will invoke history. You know, during 
the last period of great power competition, during the Cold 
War, the whole U.S. national security community was involved in 
the effort. You know, my godmother who was in the State 
Department, she was--she was part of our effort to counter 
Soviet communism, Soviet, you know, political ``political'' 
warfare. My first job in the Pentagon way back when was doing 
technology transfer controls. Again, that was part of dealing 
with Soviet technology theft. And today, similarly, we need a 
multidimensional effort.
    Now, of course, there are certain things that only the U.S. 
military can do, and so that needs to be part of it. But 
certainly we do need a whole-of-government and multidimensional 
effort to deal with the challenges we face today.
    Mrs. Davis. Thank you very much. I hope the National 
Defense Strategy leads us in a direction that we can actually 
analyze that in a productive manner.
    Thank you.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Thank each of you for 
being here today. And Dr. Mahnken in particular, being the 
president of the Center for Strategic and Budgetary 
Assessments, we need your input here in Congress on budgeting 
and look forward to that.
    As we discussed emerging technology and maintaining a 
strategic edge over our adversaries, I am concerned about the 
fundamental question that directly impacts our military's 
readiness for future warfare.
    The current fiscal environment that we live in is lurching 
from one CR [continuing resolution] to another. According to 
Pew Research, the average time between the start of each fiscal 
year and the date that the year's final spending bill becomes 
law has grown from 56 days in fiscal year 1998 to 216 days in 
fiscal year 2017.
    Fortunately, with the leadership of Chairman Mac Thornberry 
and Speaker Paul Ryan, defense funding has passed the House 
twice last year. And then again today, the House will be voting 
on defense funding, but the Senate has not achieved votes for 
passage. I believe that the primary function of Congress is to 
fund common defense to protect American families, to do for us 
what we cannot do for ourselves.
    Could you again, Dr. Mahnken, describe the impact of the 
inconsistent, flat, or restrictive funding, through the 
concurrent continuing resolutions, has had on the military's 
ability to prepare for future wars.
    Dr. Mahnken. Thank you, Congressman.
    Yeah. Look, I would agree with you that the habit of 
budgeting through continuing resolutions has been a 
tremendously corrosive one. And I know, you know, in this 
committee, I am pretty much speaking to the choir. But I am 
concerned, as much as an American citizen and American taxpayer 
as anything else, that at the end of the day we--you know, that 
Congress will pass a continuing resolution, Members will pat 
themselves on the back that they have done well.
    But, you know, it does have a corrosive effect. If we just 
take, let's say, a program. It could be a bomber program, it 
could be a submarine program, whatever. A program that is 
ramping up, that is moving towards production as we need 
modernization, what does the continuing resolution do? 
Continuing resolution freezes the funding at that of the 
previous year. Where more funding is needed, where we need to 
gear up a production line, where we need to hire people, where 
we need to get things going to move something into production, 
something to replace aging equipment, CR really hurts that, and 
it delays it. And CR after CR after CR just compounds that.
    And so, again, I worry that too many people think that we 
are doing well because we are passing CRs. But particularly 
when it comes to modernization, not exclusively modernization, 
but particularly when it comes to modernization, it is truly 
corrosive over time.
    Mr. Wilson. And equally, the effect on contracting with 
private businesses, can you explain how that is affected?
    Dr. Mahnken. Yeah. Absolutely. They are--you know, they are 
putting resources--they are making bets towards future--towards 
future funding. And that amounts to hire--again, hiring people, 
hiring talented people to help with design, with production, 
and where the money is either not forthcoming or it is delayed, 
it is just more and more difficult to get those talented, 
skilled people onboard to produce the capabilities that we need 
to defend the Nation.
    Mr. Wilson. Thank you.
    And, Mr. Thomas, as a grateful dad of sons who--four who 
served in Iraq, Egypt, and Afghanistan, I was so pleased to 
know we had technology like unmanned aerial vehicles over their 
head, which I counted on to protect them.
    And then recently I have had the opportunity to see 
advances of unmanned ground vehicles. It is just--the 
technology is just phenomenal to climb stairs, to go through 
hallways, to go into caves, forested areas. But I am really 
concerned.
    What recommendations do you have to expedite these new 
technologies so that they are not multiyear delays?
    Mr. Thomas. Thank you, Congressman. And I really appreciate 
your remarks.
    You know, the unmanned revolution is coming, and I think 
culturally this is often seen as a threat to our--to some of 
our service members in the sense that it is a robot versus a 
human. And I think you really put your finger on it, which this 
is about saving lives, and this is about augmenting and 
empowering humans so that they have greater span of control and 
they can do more things and overcome some of the physiological 
limitations of humans. So all of that is to the better.
    In terms of accelerating the entry into the force, you 
know, I think we have a couple problems. One is we have a 
technology transition problem, that there is lots of stuff that 
is going on in the DARPA [Defense Advanced Research Projects 
Agency] world. But the programs then get caught in this valley 
of death, that the services are not integrating them into their 
program objective memoranda as quickly as we would like. And I 
think part of the problem is that collectively we tend to 
commit acquisition infanticide.
    Once you are in the program of record, you are in pretty 
good shape, because there are lots of special interests and 
there are service proponents and there are lots of people who 
will keep you in the program of record. But it is very tough 
for some of these new technologies and some of these new 
systems to just gain entry into the program of record. And this 
is something where--as Paul was saying earlier, this is a 
critical role that Congress can play in essentially stimulating 
the Department as it has done historically on a lot of critical 
capabilities like Tomahawk cruise missiles in the 1970s and 
1980s, or Predator UAVs [unmanned aerial vehicles], where 
Congress really can play a catalytic role in driving this.
    Mr. Wilson. Thank you very much.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I want to thank each of 
you for being here and for the big thinking that you put into 
the question of, you know, future warfare and our readiness. 
Thanks for your perspectives here today.
    It seems that our services strive to be ready and well 
equipped to do everything. I think one of you testified that we 
need to do everything. And I think each of you agree that it is 
just a matter of balance and setting the priorities. And that 
is true whether our budget is in the $500 billion range or, 
what we are looking at maybe for fiscal year 2018, in the $600 
billion range. The President, I believe, is going to be asking 
for something in the $700 billion range for the next fiscal 
year. It is about balance and priorities. You take on all of 
these missions and tasks that the services have been asked to 
address.
    A few months ago, a member of this committee asked senior 
military leaders to identify either acquisitions, or programs, 
or maybe even missions that they would rather not pursue, but 
for reasons beyond their control, namely Congress's will, they 
are forced to pursue or to procure or acquire and spend.
    Does your view, your study of these issues, are you able to 
identify, perhaps today, give some examples of some 
acquisitions or programs that are way out of balance? And when 
I say out of balance, more on the side where we are doing too 
much of it today and we could actually scale back so that we 
could invest resources in those areas where the balance is 
working to the detriment of an important mission or program?
    Dr. Mahnken. I will give one example. It is not a program, 
but it is in infrastructure. I mean, I do think that the U.S. 
military, Department of Defense, has more infrastructure, more 
bases than it does forces. And I think that infrastructure, 
that overhead, costs. And so not to bat things back in the 
court of Congress, but I think another round of base 
realignment and closures [is] at least something that should be 
on the table. I wouldn't prejudge the outcome of it, but that 
is--I think that is something that is--that should be part of 
it.
    I think, unfortunately, all too often, because we have 
deferred modernization repeatedly, particularly for the types 
of contingencies we are talking about, it has--the programs 
that should have been cut were already cut, maybe even some of 
the programs that shouldn't have been cut have already been cut 
in past years. So I am at pains to find savings there. I would 
be looking--I would be looking elsewhere.
    Mr. Thomas. I would add two categories to that broadly. I 
think one is, given this issue of great power competitions, it 
is about range. That we have to rebalance across our entire 
joint force between short range and longer range forces. And 
there I would say we are probably overinvesting in short-range 
systems, whether those be aircraft or those be ground-based 
artillery systems and the like. We are going to need just much 
greater--to operate at much greater distances than we have in 
the recent past. And in this way, this is kind of reminiscent 
of the Cold War where we had to think about long-range, ground-
based missile systems. And we had a much larger bomber force 
and the like.
    The other area, as was mentioned earlier, is in terms of 
balancing between manned and unmanned systems. We know that the 
biggest driver on DOD cost growth has come from personnel. 
Personnel compensation, benefits, et cetera. As we look ahead, 
unmanned systems not only may be more operationally effective 
for many of the missions we ask them to perform, but they also 
can help us in terms of lowering the cost of things like 
training and life-cycle sustainment and the like. How do we 
essentially position ourselves to reap some of the downstream 
cost benefits from these systems I think will be important.
    Mr. Scharre. Just to add on to what Jim said, I see within 
both the Navy and the Air Force, some fundamental cultural 
realignments will have to change over the coming decades. For 
the Air Force, it is principally about range. And it is 
important. It is not just about hardware, it is about people 
inside the Air Force, because what you are talking about doing 
is changing the organizational structure inside the Air Force, 
who has power.
    Moving from what has been a fighter-centric organization 
over the past several decades towards one that now has greater 
emphasis on long-range strike, long-range bombers, and reduced 
emphasis on fighters. And that is going to change the sort of 
balance of power inside the services between these communities. 
And that is where congressional leadership is very important. I 
see a similar need in the Navy to emphasize undersea.
    Mr. Brown. Thank you, Mr. Chairman.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And thank you all for 
being here.
    We have vulnerabilities as a Nation, whether it comes from 
legacy or whether it comes from a strong reliance on exquisite 
satellites in space that are very expensive, very capable, but 
also potentially very vulnerable. But I want to turn this 
around. You know, we have our vulnerabilities. What 
vulnerabilities--you know, God forbid there is ever a conflict. 
But what vulnerabilities do China and Russia have in particular 
that it might be wise to pay attention to? For all three of 
you.
    Mr. Thomas. Well, if I could maybe begin.
    I think the greatest source of vulnerability for both China 
and Russia is their lack of political legitimacy long term. 
That is fundamental. And both of them face enormous internal 
security risks, how they meet the demands of their people. But, 
you know, if you are Russia, you have got to govern and you 
have got to maintain security across 11 time zones.
    If you think we have problems with thinking about 
concurrency and can we fight two nearly simultaneous wars, what 
does that look like from Russia's perspective? Or China's, for 
that matter? Do they have the command and control to do it? Do 
they have the logistics to do it? Can they split their forces 
like that?
    They also have a number of historical competitions on their 
borders. They don't have great neighbors like we do with Mexico 
and Canada. And so that is something that they always have to 
be on guard about.
    So I would just leave those as a couple major 
vulnerabilities that these countries have.
    Dr. Mahnken. Yeah, I would agree with that. And I would 
say, really, the political warfare campaigns that we see China 
and Russia waging against us are, in fact, efforts to weaken 
us, to weaken our morale, to divide us, because what they 
actually fear is, you know, that the vibrancy of our democracy. 
It is a reflection in a way of the weakness of the 
authoritarian political model.
    They see us as trying to overthrow them. Whether we are 
actually doing it or not, our culture, our society is--offers 
such an example that others within their borders, without any 
backing by the U.S. Government, seek to emulate it.
    So I think the authoritarian political system is a deep 
critical vulnerability for those----
    Mr. Lamborn. Okay. I hear what you are saying. I agree a 
thousand percent, but you are really getting more into soft 
power. And I agree that that is vital and is our ace up the 
sleeve, you might say. But I want to talk about hard power.
    What are military vulnerabilities that these two near peers 
have?
    Mr. Scharre. Sure. So if I may, I think certainly in 
electronic warfare and cyberspace, they have similar 
vulnerabilities that come from any kind of digitally enabled or 
network system that we have. Those are places where we ought to 
be able to exploit those. We are a high-technology country. We 
should be able to be dominant in those spaces. It is going to 
be contested, but we should be able to use that space to 
exploit their vulnerabilities and disable their systems, or 
degrade them at least.
    I also think on the command and control side, because of 
the nature of being authoritarian regimes, even inside their 
military structure they are likely to have more vulnerabilities 
to their command and control being more brittle because their 
people are--they are likely less to trust their people and they 
are less likely to be able to take the initiative the way that 
U.S. personnel are going to be able to do. And so that is 
something we ought to think about how to exploit that in a 
wartime environment.
    Mr. Thomas. Let me just take a shot at judo throwing the 
problem that we face from an American perspective, which is we 
see that power projection is getting tougher for us and our 
ability--you know, that our position is eroding across all 
domains of warfare. This affects us the most because we are the 
country that has most branded itself as being in the power 
projection business. But it is going to affect all countries, 
and it is going to affect Russia and China when it comes to 
local power projection. And this is something we can exploit. 
They are going to be very vulnerable as they try to project 
power beyond their borders, that they are going to have a lot 
of problems we do but at a smaller scale.
    And this is something we can exploit by, you know, arming 
our allies with anti-access and area denial capabilities, by 
denying them effective use of the electromagnetic spectrum, by 
pinning them in geographically into certain areas and not 
letting them break out. These are things that we can--that we 
could do very effectively.
    But, again, it requires a radically different approach to 
warfare than the one we have had for the last 25 years.
    Mr. Lamborn. Thank you very much.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here. Good morning.
    I come from the central coast of California. On the central 
coast, I am sure you have heard of the military institutions 
that we have there. Educational institutions such as Navy 
Postgraduate School [NPS] as well as DLI, Defense Language 
Institute. And so--just to kind of give you a foundation of 
what my questions are going to be focused on.
    You know, obviously you have talked a lot about 
operational, what we can do in the future for operations. But 
you also mentioned a couple words like cultural resistance, I 
think you used, and multidimensional efforts as well. Narrowing 
it down in regards to our educational investments, would that 
be a part of these multidimensional efforts? Would it be a part 
of helping the cultural change? And if so, what types of 
investments should we have in our military educational systems?
    Dr. Mahnken. So as somebody who spent a good chunk of his 
career in the professional military education system, it won't 
surprise you to hear--look, I think professional military 
education is crucial to this. And I was heartened by the 
language on that in the summary of the National Defense 
Strategy that was released the other week.
    Look, I think both at sort of at the strategic level and 
understanding the character and conduct of war, understanding 
strategy, understanding foreign cultures, and becoming true 
military professionals, education is crucial. I think that, you 
know, part of the cultural change that needs to come about can 
come about through professional military education.
    When it comes to--and you mentioned DLI. I mean, I think 
the Defense Department does about as good a job as can be done. 
Educating adults in foreign languages, I think we need to--we 
need to do that. We also need to look for ways to bring in 
folks, heritage speakers of foreign language, to kind of get 
them along that--along that path. I think we should explore 
things like bonuses or--either requirements or bonuses for ROTC 
[Reserve Officer Training Corps] scholarship recipients, 
cadets, midshipmen to take on hard foreign languages, because 
the earlier you learn a foreign language, the better off you 
are.
    So I think education clearly is key to our strategic 
effectiveness.
    Mr. Panetta. Thank you.
    Mr. Scharre. Thank you. You know, I think that these 
institutions can be really vital in helping to encourage 
service members to experiment, think outside the box about new 
ways of warfighting. And I will give two examples. At NPS in 
particular, there is a really incredible experimentation going 
on on swarming warfare tactics. People that--things that no one 
has really thought about before now that you have robotic 
swarms, and we have demonstrated them over 100 small drones 
flying together as part of a swam, how do you fight with that?
    How do you command and control that entity? How do you 
counter someone else's swarm? What is the right tactics for 
that? NPS is doing both physical and then modeling in 
simulation computer experiments trying to figure that out.
    But, you know, more broadly I frequently get service 
members reaching out to me from these institutions when they 
are there working in courses. Give them a role, I think like 
asking questions about, hey, I am writing a paper on some new 
concept for warfare, whether it is robotics or something else.
    And, you know, hey, are there things I should look into? 
Are there things I should be reading about? Can you give me 
some thoughts on this? So it gives service members an 
opportunity to then take a step back in their careers, think 
about history, think about broad patterns of innovation, and 
then start to apply that kind of thinking to the future of 
warfare and their roles going forward, which is great.
    Mr. Thomas. Yeah, I would just--I think cross-pollination 
is really critical. And, you know, I think back to a previous 
revolution in warfare in the 19th century, and there were 
leaders like Bismarck and Prussia who happened to also be in 
the railroad business, and they were able to take lessons they 
were learning from the commercial sector and bring them in and 
transform warfare. That is a role that professional military 
educational institutions like Naval Postgraduate School can 
play today. And it really is a national gem.
    I would say the other thing that is really important is 
IMET, but it is our International Military Educational and 
Training programs, and bringing ally and partner military 
leaders to the United States where they are going to interact 
on a daily basis with rising U.S. military officers and NCOs 
[noncommissioned officers].
    But they are building personal connections that will last a 
lifetime. But it is also the cross-pollination that--you know, 
the United States doesn't have a monopoly on all the great 
military ideas, and there is a lot we can learn from some of 
these students coming through our programs.
    Mr. Panetta. Great. Thank you.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks so 
much for joining us.
    I want to begin, Mr. Thomas, with you and go specifically 
to Secretary Mattis' National Defense Strategy where he notes 
that rapid technological advancements and the changing 
character of war are going to force the U.S. to change and 
modernize more quickly than our adversaries, which is sort of 
the beginning of where things are going.
    He did mention specifically directed energy and hypersonics 
as some of those areas where we really have to make those 
advancements. And in my district in Virginia, the Dahlgren 
Naval Support Facility is doing a lot of work within those 
particular areas. Let me get your perspective on what we face 
as far as emerging capabilities with our adversaries, things 
like unmanned systems. Give me your perspective on what we are 
seeing now where we are going to have actually the employment 
of a more modern laser onboard the USS Portland, LPD-27, in an 
upcoming deployment.
    Give me your perspective there in countering what Mr. 
Scharre had emphasized or talked about, and that is drone 
swarming. Are those weapon systems, like a laser, able to do 
that? And how quickly do you think we can get a weapon system 
like the railgun deployed so it can actually be there to 
counter what we see as emerging technologies from our 
adversaries?
    Mr. Thomas. Thank you, Congressman.
    A great question on all of these technologies. And if I 
could, just broadening directed energy out from just thinking 
about lasers, as you rightly do in your remarks. It is, in 
fact, also about hypervelocity projectiles using railgun or 
powder gun technologies. These are coming along at a much 
faster pace than anyone would have anticipated certainly a 
decade ago. And they are seen as technologically feasible.
    There are some technical challenges in terms of improving 
the two performance for a greater number of shots, as you know. 
But I think these are things that will be worked out within a 
very few years.
    These have the potential to radically transform the 
offense-defense equation, to make defense much more cost-
effective against incoming salvos, attacks on our naval forces, 
on our ground forces, on air bases, and the like. So that is a 
really big deal, especially as we think about how we buy back 
some of the value of our overseas bases or how we are able to 
push our naval forces further into contested environments in 
the future.
    With respect to hypersonics, this is one where we obviously 
are making big investments, but so are our competitors. And, 
again, we have a much more level playing field in terms of 
basic science and technology research, especially vis-a-vis 
China, than we did in the Cold War. So we are going to have to 
adopt, I think, a very different competitive technological 
strategy than we have had in the past.
    Thank you.
    Mr. Wittman. Thank you. I think that is a great point, 
especially on the acquisition side. You know, they start with a 
blank sheet of paper, no limitations. Our piece of paper is 
full of noes. No, you can't do this; no, you can't do that. We 
have find a porthole through there to find a way to get to yes. 
So I think those are great points.
    Dr. Mahnken, can we go to you? I want to talk a little bit 
about Chinese Navy capability. We see today they are retiring 
their legacy combatants. They are now building very capable 
multi-mission ships that can--that can compete in an anti-ship 
environment with great self-defense systems, anti-submarine, 
anti-air systems there. And now as you see their deployments 
are not just there in their near territorial waters.
    They are projecting power into the Indian Ocean, the 
Atlantic Ocean, the Baltics. And they are sustaining those 
operations there, something that is extraordinarily 
significant, I think, as far as what we are looking at. 
Obviously we are trying to also match with modernized naval 
capability.
    Give me your perspective on where we are as the United 
States Navy versus the capability in the Chinese Navy and 
remembering that it is not just quantity there, they have many 
more ships than we have, but they are also now putting in that 
quality perspective which we used to have the advantage. And 
give me your perspective on where we are in countering China 
looking at our naval forces today.
    Dr. Mahnken. Thank you, Congressman. It is an excellent 
question.
    I would say, look, actually, China conceptually is building 
three navies. So there is this sea-denial, anti-access 
``navy,'' and I use the quotes because it goes beyond the 
People's Liberation Army Navy to include their anti-ship 
ballistic missile systems and other capabilities that reside 
outside the navy.
    There is a sort of a softer soft-power navy that is a 
humanitarian assistance, disaster relief, friendly navy.
    And then, as you point out, there is increasingly a power 
projection navy. And that is increasingly equipped with modern 
surface combatants with some pretty impressive capabilities.
    You know, the U.S. Navy has been the world's dominant navy 
for decades. I think in a number of areas, we have rested on 
our laurels a little bit, and particularly in anti-ship 
capabilities, anti-ship cruise missiles and so forth. So I 
think we find ourselves a little bit of a step behind.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    Mr. Scharre, I really appreciated your testimony. You say 
that one of the reasons we aren't ready is, quote, ``It is not 
for a lack of money,'' and you point out correctly that we 
spend more money than all of our adversaries. As you well know, 
we spend more than the next eight countries combined. And you 
say what we really need is sufficient strategic agility.
    And my question is, in the part of the country where I come 
from, in Silicon Valley, if you have a company that is getting 
money and is getting three times more than its competitor and 
isn't executing, the last thing you want to do is give them 
more money. That would be the last thing you would want to do 
to get reform.
    What is your view on giving more money? And do you think 
that the principles in the private sector should apply to the 
military?
    Mr. Scharre. Yeah, I mean, there is some degree of--I would 
say that more important than the quantity of money is budgetary 
stability, right? If we can get budgetary stability for the 
Department, then we can live with a budget probably in the mid-
600s, provided that there is sufficient reform on cutting 
programs you no longer need and orienting that money towards 
future threats. But I am most concerned about things to speed 
our acquisitions process so that we can bring things to market 
faster.
    I do think, you know, to your questions about whether or 
not the same principles should apply, there are obviously very 
fundamental differences. The Pentagon has a large board of 
directors, in the form of Congress, right, who all have veto 
power over what the Pentagon spends on, and, you know, defense 
industry has a big influence, as well, that is different.
    But I am more concerned about how do we get these decisions 
done faster, because if we keep building things on these 
decades-long time horizons, we are always going to be building 
things too late.
    Mr. Khanna. I agree with you on stability, and I know 
Chairman Thornberry has been an eloquent voice on stability. 
And I don't think there is anyone in Congress who disagrees 
that we should not be funding the Pentagon on continuing 
resolutions.
    But I would be curious from our other witnesses, as well. 
You know, I mean, obviously, we have the best military in the 
world. I don't think anyone would say that our troops aren't 
more resilient, aren't more creative and competent than the 
Russian or Chinese troops. We have the best military leaders in 
the world.
    So I guess what I am struggling to understand is: We are 
outspending folks three to one. We clearly have better 
character and resilience in our troops. What is going wrong? I 
mean, why are we not three times more effective?
    Dr. Mahnken. First off, Congressman, and with all due 
respect, I don't know whether we have the world's best military 
when it comes to the types of contingencies that I described. 
What basis would we have to judge that? Because the scenario 
that I laid out was literally unprecedented. I don't know. And 
so I think we shouldn't reassure ourselves falsely that, ``Oh, 
yes, we have the world's best military,'' when the truth is we 
don't know.
    When it comes to comparisons between the military and 
private industry, I think those are useful. Let's think about 
personnel. In private industry, you can hire and fire more or 
less at will. When it comes to the military, you can't just 
get, you know, a skilled aviator off the street; it takes time 
to train that person up. And then, because of the retirement 
system, because of all sorts of benefits, you are paying for 
that person throughout his or her life. And that is about 50 
percent of the budget right there.
    When it comes to acquisition, when I used to work with 
then-Deputy Secretary Gordon England, he used to say, what is a 
defense contractor? And he said, a defense contractor is 
anybody who is willing to put up with the mountain of paperwork 
that was the Federal Acquisition Regulations [FAR]. That is a 
defense contractor. Our competitors get to deal with everybody 
else.
    So, in private industry, if you are not dealing with the 
Federal Government, you have a lot more flexibility. You don't 
have to adhere to the FAR.
    Mr. Khanna. I just want to give Mr. Thomas----
    Dr. Mahnken. Yeah.
    Mr. Khanna [continuing]. 30 seconds.
    Dr. Mahnken. But just a couple differences.
    Mr. Khanna. Thanks.
    Mr. Thomas. You know, I think here is the fundamental 
issue, is that we almost have to take a back-to-basics approach 
for the Department of Defense, that since the creation of the 
Department in 1947 we have grown the bureaucracy and we have 
grown the enterprise, but if we are fundamentally in the 
business of projecting power--that is, visiting violence on 
those who would do us harm as a deterrent or in conflict--the 
number of arrowheads in our system has just shrunk massively 
over time. We have fewer and fewer weapons; we have fewer and 
fewer delivery systems.
    But we have more and more of a support structure for all of 
that, which costs a lot of money. And, at the same time, where 
have we seen the biggest cost growth over the last 15 years? It 
has been in personnel costs. And when we talk about increasing 
the size of the force or anything else, it means that our 
downstream costs are going to be that much more in terms of 
compensation and benefits.
    So that is something where we want to try to arrest that 
cost growth and, again, buy back some of our weapons and 
delivery system capabilities, at the pointy end of the spear.
    Mr. Khanna. Thank you, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    As we discuss this, I just kind of globally go back to the 
fact that there are over 7 billion people in the world, 300 
million Americans--325 million Americans. Less than 1 percent 
serve in the Armed Forces. And I think that not just U.S. 
security but the whole world's security is contingent upon 
those men and women and the partnerships that we have with 
other countries in the world.
    Certainly, if a country partners with China or with Russia, 
they have to worry about China and Russia taking them over, but 
they don't have to worry about that with the United States. And 
so a focus on those partnerships with our allies and alliances 
and friends is key to that security.
    One of the things I am concerned about, as I look at the 
fight with Russia and China and the expansion of the 
battlefields into, specifically, space with China and Russia--
cyber is something that smaller countries can compete in, which 
makes it, I think, even more difficult than space--but it is 
the cost of space and the dependence on space and our 
Department of Defense's desire to move more and more to 
dependence on space, the cost of space and the technology. And 
if we become too dependent on it, if China and Russia find a 
way to break or to defeat us in space, what vulnerabilities 
does that leave us with if we no longer maintain our existing 
system?
    So could each of you quickly discuss the risk on our DOD 
becoming too dependent on space and what alternative approaches 
could operate in conjunction or in addition to space?
    Mr. Scharre. I think you are right, sir. We are already too 
dependent on space. And right now the Department's answer has 
been to basically double down on that, on what is right now our 
asymmetric advantage in space but also our Achilles' heel.
    The real solution? There are steps we can take in space to 
make our space architecture more resilient, but we also need to 
be building capabilities outside of space that give us 
additional redundancy and resiliency.
    The Department has for several years been looking at a 
Joint Aerial Layer Network that provides similar 
communications, position, navigation, and timing, passive GPS 
signals, through an aerial architecture. You are never going to 
get the same sort of peacetime-level cost-effectiveness that 
you might get with satellites, but you might get better wartime 
resiliency because you can move aircraft around in a way that 
satellites move through predictable orbits and are easy to 
target.
    And so, you know, one of challenges has been, from an 
organizational standpoint inside DOD, you have offices inside 
the policy shop, inside the acquisition shop, in OSD [Office of 
the Secretary of Defense], and then in the services that are in 
charge of space. You don't have people in charge of, sort of, 
global C4ISR [command, control, communications, computers, 
intelligence, surveillance, and reconnaissance] the same way, 
which is what you really need, is sort of building a global 
architecture in multiple domains.
    Mr. Scott. Mr. Thomas, could you speak briefly to that?
    And, Mr. Mahnken, I am going to change the question for 
you.
    Mr. Thomas. I think Paul put his finger on it, in terms of 
how we organize is a major part of the problem, in terms of 
thinking more about portfolios and about how you balance risk 
to provide the same enterprise service, whether it is 
surveillance or communications or position, navigation, and 
timing. The----
    Mr. Scott. Okay. Thank you. I am sorry.
    Dr. Mahnken, the 2017 Center for Strategic and Budgetary 
Assessments' report, there is a statement in there--``Force 
Planning for the Era of Great Power Competition.'' There is a 
call for the development of low-probability-of-intercept/low-
probability-of-detection communications and secure data links 
to create ISR [intelligence, surveillance, and reconnaissance], 
strike, electronic warfare, and airborne battle management, 
command, control, communications, and intelligence systems.
    It goes on to say, ``Networks should support communications 
between fifth- and fourth-generation aircraft and direct 
coordination with sea-based assets and ground fires units. The 
ability to be integrated into a network of sensors and shooters 
should be a baseline requirement for all future combat 
aircraft.''
    Do you share your colleagues' recommendations in regard to 
the need to develop airborne battle management systems with 
network communications to support strikes in contested areas?
    Dr. Mahnken. Yes, absolutely.
    Mr. Scott. Do you see current systems designed from the 
start with open mission systems architecture, such as JSTARS 
[Joint Surveillance Target Attack Radar System] recap 
[recapitalization], as a vehicle for rapid application of these 
concepts?
    Dr. Mahnken. I do. And we need to have the incentives for 
an open architecture and incentives for interoperability kind 
of built in from the beginning and not added or sprinkled on at 
the end.
    Mr. Scott. Gentlemen, thank you. I am down to about 15 
seconds. Mr. Thomas, sorry you got cut a little short. But 
thank you for your service to the country.
    And, with that, I yield the remainder of my time.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    It seems to me that this hearing is mis-titled. It should 
be ``Readying the U.S. Military for Present Warfare,'' that we 
are already past this discussion. We are not talking about the 
future of warfare; we are talking about--you all have testified 
about what we ought to be doing right now, not what we ought to 
be doing in 10 years. And we are a little, I guess, behind the 
eight ball.
    And I am just wondering--and I have gone through your 
testimony, but--how we stumbled into great power competition. 
Ten years ago, it was near peer. Even 5 years ago, it was near 
peer. It seems like there is this progression of titles we are 
moving towards, talking about the other folks in the world, 
from nonexistent or folks who were on the downhill slide, to 
near peer, and now they are even with us.
    Would you argue that, say, China and Russia are even in 
terms of power with us? Are they great? Are we one of the great 
powers in the great power competition? Are we talking about 
others in this? Or are we all at the same level?
    One at a time.
    Mr. Thomas. Well, I guess the place to start is by talking 
about some of the asymmetries between the great powers and that 
the biggest is that, when we talk about China and Russia, we 
are normally talking about local theater competitions. We are 
not talking about a global competition----
    Mr. Larsen. Right.
    Mr. Thomas [continuing]. As we were in the Cold War. This 
isn't the Soviet Union.
    But what we see is that they have favorable time/distance 
asymmetries in terms of local power projection. Their ability 
to go and grab something before we can dispatch forces to react 
and counter them is far greater than it was dealing with 
countries like Iraq or even North Korea on the Korean 
Peninsula.
    And so I think that is a big difference. I mean, the United 
States has the burden of providing global security, that we 
have to be in multiple theaters of the world policing at once 
and, at the same time, policing the global commons and 
protecting the homeland. For these countries, they are able to 
really focus their attentions.
    We also assume that, in most cases, they have the 
initiative, that it is not the United States that is starting 
some war in Europe or in Asia, but we potentially are going to 
have to react and come to the aid of an ally.
    Mr. Larsen. Can I, before I--I need to move on to a 
different point related to that point. Would you argue that is 
one of the reasons why we spend X times what Russia or China 
spends and yet we can call them a great power, even though we 
are outspending countries by, you know, the last previous eight 
countries' defense budgets?
    Dr. Mahnken. Yeah, I think the comparison oftentimes is a 
false one. Again, we have global interests. Competitors have 
regional interests, by and large, although sometimes getting 
larger. You know, we pay. We pay professionals. They don't 
always have to. Too often, when we get to these gross 
comparisons of defense spending, I just think it is apples and 
oranges.
    Mr. Larsen. All right. Do we buy apples and oranges for our 
Defense Department?
    Paul, if you could address--and just even getting down to 
the R&D [research and development] issue and the focus on R&D. 
You testified in front of us a few weeks back on some of this. 
We are trying to do everything, but do we do R&D well? Are we 
investing in the right things?
    If you looked at the appropriations we are voting on today, 
when you look at the President saying he wants $716 billion, is 
all that for more steel and, you know, more platforms that 
Members of Congress can take credit for, or is it actually in 
bits and bytes and electrons and things that we don't see and 
can't take credit for but is more necessary?
    Mr. Scharre. Yeah, I mean, I think we could do better in a 
couple ways.
    I think we could have more strategic plan, as a department, 
about how we invest our R&D dollars. Right now, a lot of it is 
bottom-up from within the services. There is value in both 
approaches, but having a more coherent strategy would, I think, 
benefit the Department.
    But, more importantly, there is so much innovation 
happening outside of the traditional defense sector that we 
need to do a better job of drawing that in. There are lots of 
U.S. companies spending a lot of money investing in better 
computer chips, better artificial intelligence [AI], better 
networking. We don't need to try to replicate that. What we 
need to be able to do is to spin that technology in easily.
    And that is really the barrier right now, was we built up 
these walls to innovation, to bringing that kind of technology 
in. So we want to sort of tear down those walls and find ways 
to allow those companies to then work with DOD better.
    Mr. Larsen. All right. That is fine.
    Thank you. I yield back.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, there is a common concern in your written 
testimonies that the current structure of the U.S. industrial 
base is ill-suited to produce the assets necessary for the U.S. 
to initiate and sustain a great power war.
    You are talking about something I know a little bit about, 
and that is shipbuilding. The Navy shipbuilding industry is a 
good example of our declining industrial base. At the end of 
the Second World War, the United States had 8 public shipyards, 
along with 64 private shipyards. Since the 1940s, there has 
been a nearly 90 percent decline in shipyards. We now only have 
seven private shipyards building our fleet.
    Additionally, the latest census indicated that only 0.3 
percent of high school students pursue vocational or technical 
education, which you need to know to make ships. This lack of 
supply can hardly keep up with the demand of skilled-labor jobs 
in the civilian labor force, especially in the shipbuilding 
industry.
    Since we have reached a period where we have lost the 
institutional knowledge on great power wars and apparent lack 
of priority for the U.S. industrial base, what would be your 
advice to the Department of Defense on how to protect and 
catalyze our defense industrial base to prepare it for a future 
conflict?
    Dr. Mahnken. Congressman, that is an excellent question.
    So, you know, I think for too long we have been focused in 
the defense industrial base on efficiency, not in really 
determining what it would take to yield the capabilities that 
we will need in war, including the types of war we are talking 
about here. And that may not be the most efficient route. I 
think that type of assessment needs to go on.
    I think also, as an extension of what I was saying earlier 
with that deep conversation that needs to go on with our 
allies, we need to have that conversation as well. You know, 
are there ways that we can deeply collaborate when it comes to 
our industrial bases, or do we have to have all that capability 
resident in a particular sector, resident in the United States? 
It really is time--it is overdue--to have that type of a 
conversation.
    Mr. Byrne. Well, let me ask you in maybe a little bit 
different way. Should it be a priority of the Department of 
Defense to maintain and rebuild our industrial base for the 
various assets that we need?
    Dr. Mahnken. Congressman, I think it is time, but I also 
think we need to look beyond that, meaning there is--the 
defense industrial base of 2018 is not the defense industrial 
base of 1945. And the defense industrial base of 2030 is, I 
would venture to say, not the defense industrial base of 2018.
    So we need to be looking not only at the traditional 
sectors, I think which will endure, shipbuilding being clearly 
one of them, but we also need to look to adjacent sectors, that 
if we were having this hearing in 2030 people would be talking 
about the defense industrial base, but we don't consider part 
of that base today.
    And where I have concerns there are foreign acquisitions of 
some key companies in some of these cutting-edge areas----
    Mr. Byrne. Right.
    Dr. Mahnken [continuing]. That may be undermining our lead 
in some of those areas that are just adjacent to today's 
defense industrial base.
    Mr. Byrne. Well, let me make this suggestion. In a prior 
life, I was the chancellor of the 2-year college system in 
Alabama and the chair of the Workforce Planning Council. And I 
was charged at one point with building up the labor force for a 
shipyard that was building from the ground up.
    Getting people with those skills is extraordinarily 
difficult. First of all, you have to find the people that are 
willing to take the training and do the work, and it is hard 
work. And, secondly, you have to get them not just sort of the 
book-learning but the actual experience of doing it to where 
they get to be proficient at it.
    And so this is not something you push a button and say, 
``Hey, we need to hire a thousand shipyard workers,'' and the 
next day you have them. It takes years for those people to 
build up to the point where they are performing at the level 
that we are going to need them to.
    And I think about World War II. In my hometown, they were 
capable of turning out one ship a week. Now, these were Liberty 
ships. You know what those were. But we don't build Liberty 
ships anymore. We build extremely sophisticated ships. And so 
the level of expertise we need and the ability to turn them 
out, there is no way we could go back and do what we did in 
World War II. We don't have the workforce, we don't have the 
shipyards, particularly given the sophistication we are talking 
about.
    So it seems to me we ought to have a national discussion 
about how we have an industrial base, period, but, secondly, 
how we have an industrial base that can meet the needs of the 
new assets that we are going to have for the future warfare.
    Dr. Mahnken. I agree.
    Mr. Byrne. Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    This is a follow-up to Mr. Byrne's questions.
    And, Dr. Mahnken, you mentioned what we are going to be 
talking about 30 years from now will be very different than 
today.
    We just held an Emerging Threats and Capabilities 
Subcommittee hearing looking at China's use of emerging 
technologies. And one of the themes that resonated was the need 
to increase and sustain our own science and technology 
innovation and investments. As an example, high performance in 
quantum computing was highlighted as an area where the Chinese 
are proving to be more reliable investment partners than the 
U.S. for research, which could significantly degrade our 
ability to compete.
    So I have two questions related to that.
    The first is, for each of you, what critical technologies 
should we be investing in, and are we investing enough in these 
areas? Some that come to mind are quantum, artificial 
intelligence and machine learning, nanotechnology, robotics, 
even gene editing and synthetic biology. That is question one.
    Question two is: Any strategic areas of concern where you 
would recommend a rapid acceleration of development so that we 
are better postured for that 10-, 20-, 30-year outlook that you 
noted, Dr. Mahnken?
    So I will start with you.
    Dr. Mahnken. I think, actually, your list is a good one, 
and I think that is the right list. And I think the nature of 
R&D is, in general, within limits, the more resources, the 
better, because you don't know what is going to pay off, when 
it is going to pay off.
    To take the example of directed energy that was raised 
earlier, directed energy has reliably been sort of 5 or 10 
years out for my adult professional career, except I think now 
we are actually at a stage where we are getting there. So 
forecasting breakthroughs can be difficult. So I think more 
resources are needed for those areas.
    I think in terms of areas where we may be falling behind, 
many of the same areas. I would put hypersonics in there as 
well--I think that is an area of concern--AI, most certainly; 
and quantum, most certainly, as well.
    Ms. Stefanik. Mr. Thomas.
    Mr. Thomas. Yeah, I think that is a great list that you 
have got.
    A couple things. One is that, during the Cold War, the 
United States was able to sustain technological leads across 
the board. We just ran up everything. I don't know if we are 
going to have the fiscal luxury of doing that on the 
competitions that are coming, so we are going to have to be far 
more selective. I think your list is an excellent one in terms 
of how we think about perhaps narrowing scope.
    I think the other is really think about what are the 
applications, practically, in two ways. One, how are they going 
to change the sources of national wealth in the future? How do 
you get rich as you look out 30 years from some of these 
technologies? And what is the impact of that on our broader 
society and economy? But then there is the more limited 
question of what are the military applications going to be, and 
how is this potentially going to change the way wars are 
fought?
    And in a number of these technologies--quantum, for 
instance--it really happens across the board. It changes our 
ability to sense, it is going to change communications, it is 
going to change computation and in ways that could overthrow, 
kind of, the existing warfare regime that we have today, with 
supersensitive sensors that can detect magnetic anomalies and 
things like that that are really beyond our scope today.
    Ms. Stefanik. Mr. Scharre.
    Mr. Scharre. Yes, ma'am. So you heard some of my views on 
this in the last hearing. I think that if I had to choose to 
prioritize, I would focus things in information-based 
technologies. Those are things where we are seeing most rapid 
advances, and there is a lot of intersection and synergy among 
them--relationships between, for example, artificial 
intelligence being able to then process large amounts of data 
and having effects on, for example, synthetic biology.
    That is not to say that other areas like directed energy, 
hypersonics, they are not important. They are important. DOD 
needs to invest there because we are not seeing commercial 
investments in those places. Right? Google is not going to go 
build a hypersonic weapon; we have to do that. But I think we 
are more likely to see the payoff in information-based 
technologies. They are more likely to mature fastest and change 
warfare most significantly.
    Ms. Stefanik. I have 30 seconds left.
    You know, as we consider making sure that we are 
maintaining an edge in 21st-century technologies, I am 
concerned about our ability to enact national-level whole-of-
society plans. Obviously, China has a distinct advantage just 
in their top-down, whole-of-government approach.
    What can we do to improve our national-level coordination 
plans when it comes to this technological development?
    I am almost out of time. You can follow up with the record 
on that.
    The Chairman. Important question that we need to talk more 
about, because we see what others are doing.
    Mr. Hice.
    Mr. Hice. Thank you very much, Mr. Chairman.
    And as the newest member of this committee, I want to thank 
each of you for your expertise and what you bring to the table 
today. It has been extremely insightful and helpful to me 
personally.
    The Trump administration's National Defense Strategy 
actually states that the current bureaucratic approach, 
centered on exacting thoroughness and minimizing risk above all 
else, is proving to be increasingly unresponsive.
    Interesting to me how they have raised concern over a 
culture of minimizing risk above all else. Would you share that 
same concern? Each of you.
    Dr. Mahnken. Yes.
    Mr. Thomas. Yes.
    Mr. Scharre. Yeah, absolutely.
    If I could just give one example. If you go look, for 
example, at the number of people working on the Joint Strike 
Fighter program, okay, giant program. You got people doing it--
you got engineers, you got people building the thing, you got 
people down on the floor constructing it. But then you have 
people sort of checking everyone, right? Just managing the 
program, supervising things. What is their role? It is to keep 
costs down. But they are adding to cost, right?
    And so this gets to this risk aversion that we have in the 
Department that ends up slowing things down, adding cost, and 
adding red tape.
    Mr. Hice. Okay. Well, you bring up a good point then. What 
other risks are, in itself, embedded within a culture of 
avoiding risk above all else?
    Mr. Thomas. Well, so one of the things that I think Paul is 
getting to is that the testing regime for systems is one of the 
things that really slows us down.
    Industry is amazing. I mean, we can prototype advanced 
technological systems in a question of months. But going from 
0.9 version of a system to the 1.0 version that has a user's 
manual with it and has been fully tested and all the kinks have 
been worked out, that takes years. And that is one of the 
things that is really slowing us down.
    Having more of a prototyping mindset and actually pushing 
more prototypes out into the field faster, systems that we can 
experiment with. And, you know, the Navy developed the X-47B as 
an experimental prototype. It now is being retired. That is a 
system that actually still has lots of life in it. We have made 
a tremendous investment. And that is one where we could be out 
there experimenting or we could use it for the MQ-25 program, 
to begin training aircrews now so that they will be ready to 
accept the MQ-25 when it comes on line, as an example.
    Mr. Hice. Okay.
    Dr. Mahnken. And I would agree with that example. I mean, 
there is a case where the American taxpayer has already 
invested significant money in a capability, and not only is it 
being retired but may even be dismantled. It makes no sense.
    I think the biggest risk in a risk-averse culture is the 
risk of not having the capability we need when we need it.
    My father was involved in the Atlas ballistic missile 
program. You know, they were given a target, to get a 
capability in the field to defend the United States. All else 
was secondary to that. And they went--herculean efforts, a lot 
of failures along the way, and it produced the first 
intercontinental ballistic missile to defend the United States.
    We can still do that, but so many of the incentives that we 
face today are 180 degrees out from back when we were truly 
serious about these things, when we faced an existential threat 
and needed to respond to it.
    Mr. Scharre. If I could just--so I think, you know, one of 
the things that is really essential is that Congress looks at 
putting the right incentives in place, sir.
    So, if you go to, like, a venture capital firm, you know, 
they understand that a lot of their investments are going to 
fail, and that is what they are betting on, is they are going 
to take risk, right? And they are looking for the one that is 
going to pay off big.
    We have the opposite structure. So, if you look at this 
example that my two colleagues mentioned about an X-47, if the 
Navy were to go ahead and do this, they would likely get a lot 
of heat from Congress, right? Because you would be saying, 
``Well, you got this one program over here. You got this other 
program over here. It looks redundant. What are you doing?''
    The smart thing, I agree, would be to continue to keep this 
investment we have made in these demonstration aircraft, use 
them for the Navy or the Air Force, get some mileage out of 
this, and be able to do interesting things, be able to take 
risks. Do a demonstration, and maybe it does not work, and that 
is okay, because we are learning from that process. But it 
requires kind of the political top cover to say, ``Go forth and 
do.''
    Mr. Hice. Okay. I appreciate those answers.
    Let me transition real quickly. You mentioned earlier one 
of the vulnerabilities is space. I would guess, probably, with 
the emphasis we place now on cyber, that is also an area we 
have to focus on.
    So, with that in mind, what capabilities should we really 
be investing in in these areas?
    Dr. Mahnken. As a country, we are undergoing a commercial 
revolution in space. So we are actually, in some ways, better 
positioned than anybody to take advantage of it. DOD needs to 
take advantage of that.
    And, conversely, you know, as we are dependent in space, as 
China is increasing its space capability, China is becoming 
more dependent on space as well.
    So I think we actually have real opportunities to turn the 
tables when it comes to vulnerability in space.
    Mr. Hice. Thank you, Mr. Chairman.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Mr. Scharre, in your written testimony, you state that one 
of the priority investment areas for airpower is to maximize 
the rate of production for the B-21 bomber once it goes into 
production.
    And we have heard testimony from the Air Force that it 
needs a minimum of 100 B-21 bombers. So is this number 
sufficient to meet the wide array of current and future 
threats?
    Mr. Scharre. I can't imagine that it possibly is or that it 
is based on any kind of serious analysis. It seems like a round 
number that they just kind of made up, I mean, frankly.
    You know, any reasonable analysis that I have seen from 
outside experts comes up with numbers that are significantly 
larger than that. I don't have a specific number, but it is 
certainly going to be bigger than 100.
    Mrs. Hartzler. Okay. I would agree. So, interesting.
    It was recently reported that Russia purchased 10 
supersonic bombers. Unfortunately, while the United States was 
cutting the defense budget, Russia was aggressively investing 
in its military capabilities.
    So the B-21 program remains largely classified, but how 
would you recommend we invest in our bomber fleet to ensure 
that our capabilities are not outmatched by Russia and the 
fleet remains a credible and reliable deterrent?
    Do you want to start?
    Mr. Scharre. Yeah, I think there are a couple things.
    The first and most important thing is we have this 
aircraft, the B-21, in development. Once it goes into 
production, as I said, maximize the rate of production so that 
we are buying as most of them as we can over time to start to 
execute this shift towards more longer-range aircraft.
    We want to look at things that can augment the B-21, 
particularly long-endurance unmanned aircraft that are 
stealthy, that can persist forward into contested areas, that 
can provide surveillance and targeting and some limited strike 
capability for the B-21; as well as then we want to look at 
munitions and other air-delivered vehicles that are onboard 
both of those kinds of assets--things like small air-launched 
swarms, drones that might be used for surveillance, battle 
damage assessment, jamming, electronic warfare, decoys, all of 
these things that then go into the aircraft that make them more 
effective and survivable.
    Mrs. Hartzler. I saw in your testimony that you were also 
suggesting that we build more bombers that are able to take off 
of the aircraft carriers and in that realm as well.
    Mr. Scharre. Absolutely. We need a long-range strike 
aircraft off the aircraft carrier if it is going to remain 
relevant.
    Mrs. Hartzler. Uh-huh. Very good.
    I wanted to ask Mr. Thomas, you earlier talked about, when 
I came in, the record of issue--I mean, program of record 
issue--yeah--and that Congress can help push that for the small 
contractors. I have heard that back home, as well, many times, 
that that is an issue.
    Can you expound on that a little bit? Because you said 
Congress can help with this. What are some incentives we can do 
to help the small companies, the small innovators, and get that 
first program of record?
    Mr. Thomas. Well, I think Congress historically has just 
been an early adapter or an early proponent of some of the 
technologies that end up being embraced by the military later 
but are opposed when they are first being proposed.
    And the Predator UAV is an example of one that ran into 
enormous resistance, and Congress was able to overcome that, to 
a point where people, over the last 10 years, really couldn't 
get enough of them. When you look at the Tomahawk cruise 
missile, it was, again, one which was pushed by Congress.
    More recently, Paul was mentioning the X-47, or the idea of 
a long-range strike system from aircraft carriers, where there 
was a lot of congressional support despite resistance on the 
part of the Navy.
    If I could, just going back on the B-21 and talking about 
next-generation strike in general, when I was in the Pentagon 
we were authoring the Quadrennial Defense Review in 2006. The 
2006 Quadrennial Defense Review called for fielding the next-
generation bomber this year, 2018. We have lost close to a 
decade.
    And so we are behind the gun when it comes to the numbers. 
This was a well-anticipated requirement that was going to be 
needed, and we failed to meet that deadline.
    The other was that, when we talk about numbers, not just 
for the bomber but across the board, switching the topic and 
focusing on Russia and China, you are talking about a sea 
change in how we think about the stockpiles of our munitions 
and the delivery systems that are going to be needed. Most of 
the figures that were used to develop requirements are really 
driven by old scenarios looking at wars in the Middle East and 
the like. All that needs to be updated.
    Mrs. Hartzler. Go ahead.
    Dr. Mahnken. I would agree with everything that has been 
said. I would just add a couple things.
    One is, back to the continuing resolutions, I mean, I think 
B-21 is a poster child for how continuing resolutions can just 
corrode a vitally important program.
    And when it comes to numbers, yeah, I think we are already, 
I think, underprojecting the bomber requirements, and so we are 
going to need to look for force multipliers, we are going to 
look for adjuncts, and I think ultimately we are going to need 
to look to a much larger production run than currently 
anticipated.
    Mrs. Hartzler. Agreed. Thank you.
    I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I have a few follow-up questions for you--and really 
appreciate your testimony here today--the first really relating 
to Ms. Stefanik's questions about how confident or what is your 
level of confidence that we have a national strategy that is 
looking out multiple years.
    Dr. Mahnken. I think about strategy a couple different 
ways. I mean, one is a formal written strategy, the result of, 
you know, deliberation. And then the other is maybe a little 
bit more informal, really driven by the press of events.
    And I think what I have seen over past administrations, 
Democrat and Republican, is the growing urgency of dealing with 
great power challenges. And I think past administrations have 
come to that realization at different times in their time in 
office.
    What I would say for the current administration is they 
appear to be dealing with that up front, and I think that is 
commendable. I think the concern there is--or the possible 
downside is that we get sidetracked.
    As was previously alluded to, the 2001 Quadrennial Defense 
Review really did, you know, preview, foreshadow many of the 
challenges that we face today and actually contained a very 
good set of operational challenges. It is worth looking back 
with 17 years of hindsight and asking where we are in 
relationship to the challenges posited in 2001. I think in each 
case our situation has eroded. And so I think that the 
situation is much more urgent today than it was in the past.
    Mr. Scharre. You know, I think, ma'am, when it comes to 
these challenges and sort of a national strategy in investing 
in the science/technology base, unfortunately not only do we 
not have a strategy, the implicit strategy that I see out of 
this administration is running counter to what I think is one 
of the most important issues, which is human capital.
    And the broad sort of anti-immigration sentiment, I think, 
is actually quite harmful towards bringing in some of the best 
and brightest from other parts of the world and incentivizing 
our entrepreneurial base here.
    Mrs. Davis. Thank you. I appreciate that.
    I guess a follow-up question to that really is whether or 
not we have--that we are looking at this strategy and, again, 
where it falls short or does not, with the resources that we 
would want to have versus the resources that we have, and 
whether we are providing the opportunities to address those 
areas when, clearly, we have to deal with a whole host of 
issues, political as well as others, that impinge on our 
ability to have those resources. That is a tough one.
    Mr. Thomas. You know, I think the strategy gets high marks 
in terms of placing emphasis on great power competition. We 
have known for quite some time that China was a rising power, 
and this has been a focus. Russia has been more of a surprise, 
quite frankly, in its behavior over the last 5 to 8 years. But 
we can be fairly certain that China is going to be around for a 
long time--not absolutely certain, but we have a good idea that 
China's growth economically will continue to fuel its military 
developments.
    So I think this is an appropriate focus for the strategy. 
The real question, I think, for this committee and Congress as 
a whole is really about the implementation of the strategy. And 
what I see is, as Paul and Tom have already alluded to, is that 
there has been the disconnect for so long between an 
appreciation of the threats that we face, the security 
challenges that we face, on the one hand and where we are with 
our program of record on the other. And we have to find a way 
of closing this gap.
    Mrs. Davis. How much time do we have?
    Mr. Thomas. We are out of time. I mean, we are over time. 
These are things that should have been done yesterday and they 
should have been done a decade ago.
    Mrs. Davis. Yeah. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. You all have mentioned it, but I have been 
surprised there has not been more discussion of political 
warfare, of--somebody calls it psycho-cultural warfare.
    We can prepare for great power, near peer adversaries, but 
it is not a lesser included case to deal with some of these 
campaigns the Russians, the Chinese, the Iranians, even the 
North Koreans have undertaken that undermine our ability to 
defend ourselves or divide our alliances and so forth.
    Would each of you make whatever comments you think are most 
relevant to that aspect of warfare?
    Dr. Mahnken. Yeah. Thank you, Mr. Chairman. I think it is 
an excellent topic, and it is actually a topic personally that 
I am spending some time working on and hopefully will have 
something to show for it soon in terms of a publication.
    But I think it is useful to realize that, say, for both 
Russia and China, they see political warfare, whatever we want 
to call it, as an integral dimension both of peacetime 
competition and of war. We kind of hive it off, we see it as 
something separate, to the extent that we even pay attention to 
it. They really see it as integral. And if war is ultimately 
about affecting your adversary's decision-making calculus and 
affecting your adversary's leadership, it is integral. And, you 
know, so they are going about a particularly, if you will, 
authoritarian approach to political warfare.
    Now, there is an alternative tradition, and that is, if you 
will, democratic political warfare. In the old days, we used to 
do it passably well. We still do it, I think, subconsciously, 
meaning our society does it even when government doesn't pay 
attention to it. But it clearly is an area that deserves more 
attention.
    I think it is also an area where we can learn from our 
allies. I think some of our allies in Europe, Australia, in 
some ways they are farther along than we are in having this 
national conversation about foreign influence, foreign attempts 
to manipulate them than we are. And I think, again, that is an 
area where we could deeply collaborate with allies and with 
friends.
    Mr. Thomas. I agree with all that.
    Political warfare is not new. It was an integral component 
of the Cold War. And so, in some ways, this is more of a 
reawakening of a classic form of warfare.
    Tom is exactly right, which is our adversaries have a much 
more holistic concept of warfare, which includes both political 
as well as economic and information warfare, in addition to 
kinetic activities and the like.
    The other thing that I think is really important, 
especially when it comes to Russia and, maybe to a lesser 
extent, China, is a Russian conceptual rejection of a binary 
choice between war and peace, that it is seen that you are much 
more on a spectrum and it is a much more fluid concept.
    And I think that this is actually closer to the reality of 
what a great power competition is going to be than the American 
conception. I think this is one where we really need to rethink 
how we compete and how we essentially can frequency hop in our 
activities, as well, to match them move for move.
    And I think the last is, really, this is going to require 
an integrated, concerted defense effort on the part of the 
United States. And we are going to have to do a much better job 
of protecting our national hardware, critical infrastructure 
protection against things like cyber attacks and the like. But 
we also, I think, have neglected or we have allowed to atrophy, 
some of our civil defenses for what I call the national 
software, things like our societal cohesion and governance. And 
these are going to have to be improved in the coming years.
    Mr. Scharre. Yeah, I think Tom and Jim both hit on this, 
the central problem that the things that others are doing, if 
you look, for example, at Russia's efforts in disinformation 
and propaganda and hacking, they fall within this gray zone 
between war and peace, from our standpoint. They see it as 
warfare, it doesn't fit our kind of paradigm, and we are caught 
flatfooted.
    And so, when you look at these Russian disinformation 
efforts, well, whose job is it in the U.S. Government to 
counter that? Is it the Defense Department's? They would say, 
``No, it is not war,'' and, frankly, I am not sure that they 
are the best entity to do that. Is it the State Department's? 
Well, not the State Department as it exists today. The 
intelligence community has a role but probably not a public-
facing one. Is it DHS's [Department of Homeland Security's] 
role?
    No one has a job for countering that, right? We don't have 
an agency for countering that. So I do think there are some 
fundamental questions we need to ask ourselves sort of in terms 
of how we are going to approach that, whose job is it, what are 
the tools we need.
    I also think that--so, right now, we are basically leaving 
it up to people outside of government to even out these Russian 
entities and say, you know, Russian bots are spreading this 
information. So how does the government think about structuring 
itself to do that?
    There is also probably a role for legislation and 
regulation with the private sector. Just like we have 
legislation about material support to terrorism, probably a 
need for some legislation that actually drives private-sector 
incentives to cooperate with the government to out these actors 
and actually blunt their attacks.
    The Chairman. Challenging questions, and yet, as I said at 
the beginning, our adversaries aren't waiting. Change isn't 
waiting on us to get our act together and answer those 
questions. And I am concerned about where that leads us.
    All very interesting. Thank you all for being here.
    The hearing stands adjourned.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            January 30, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 30, 2018

=======================================================================

      

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
                   <all>
</pre></body></html>
